AUDIT OF COMPLIANCE WITH STANDARDS
  GOVERNING COMBINED DNA INDEX
   SYSTEM ACTIVITIES AT THE SOUTH
    DAKOTA FORENSIC LABORATORY
       PIERRE, SOUTH DAKOTA

      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

     Audit Report GR-60-11-007
           February 2011
     COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
         SOUTH DAKOTA FORENSIC LABORATORY
               PIERRE, SOUTH DAKOTA

                            EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the South Dakota
Forensic Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System (SDIS) is used at the state level to serve as a state’s DNA
database and contains DNA profiles from local laboratories and state
offenders. The Local DNA Index System (LDIS) is used by local laboratories.



       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.


                                             i
OIG Audit Objectives

       Our audit generally covered the period from October 2008 through
September 2010. The objectives of our audit were to determine if: (1) the
South Dakota Forensic Laboratory was in compliance with the NDIS
participation requirements; (2) the Laboratory was in compliance with the
Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS.

      Our review determined the following.

      •   We did not identify material deficiencies with regard to our review
          of CODIS access and the Laboratory’s access to NDIS policies and
          procedures. However, we found that the Laboratory’s personnel
          records retention policy did not adhere to the NDIS procedures
          requirement to retain records for a minimum of 10 years. The
          Laboratory modified its record retention policy while we were on
          site to adhere to the NDIS requirement.

      •   We reviewed the Laboratory’s most recent internal and external
          reviews and found the Laboratory to be in compliance with QAS
          requirements in the 2009 review but noted two findings of
          non-compliance in the 2010 review. The Laboratory had corrected
          these non-compliance issues prior to our audit. We reviewed the
          Laboratory’s policies and procedures related to sample security,
          sample processing, and sample retention and did not note any
          material non-compliance with the QAS.

      •   We reviewed 84 of the Laboratory’s 336 forensic DNA profiles and
          found they were complete and accurate. We found 83 profiles were
          allowable for inclusion in the Forensic Index at NDIS. However, one
          profile was unallowable because there was not enough information
          in the case file to determine the source of the profile and other
          essential information. Prior to the issuance of this report,
          Laboratory officials deleted the unallowable profile from the
          Forensic Index.

       We discussed the results of our audit with Laboratory officials and
included their comments in the report as applicable in the Findings section of
this report. In addition, we requested a written response to a draft of our
audit report from the FBI and the Laboratory. These responses are shown in
Appendices III and IV. Since there were no significant findings, we did not
make any recommendations and issued the report closed. Our audit

                                       ii
objectives, scope, and methodology are detailed in Appendix I of the report
and the audit criteria are detailed in Appendix II.




                                     iii
TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

   Background ..................................................................................... 1

   OIG Audit Objectives ........................................................................ 1

   Legal Foundation for CODIS ............................................................... 1

   CODIS Structure .............................................................................. 2

   Laboratory Information ..................................................................... 6

FINDINGS AND RECOMMENDATIONS................................................ 7

   I. Compliance with NDIS Participation Requirements ............................ 7

   II. Compliance with Quality Assurance Standards .............................. 10

   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 13

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 15

APPENDIX II: AUDIT CRITERIA ...................................................... 18

   NDIS Participation Requirements ...................................................... 18

   Quality Assurance Standards ........................................................... 19

   Office of the Inspector General Standards ......................................... 20

APPENDIX III: SOUTH DAKOTA FORENSIC LABORATORY
               RESPONSE ............................................................. 22

APPENDIX IV: FEDERAL BUREAU OF INVESTIGATION
              RESPONSE ............................................................. 23
                                 INTRODUCTION


      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the South Dakota
Forensic Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. The FBI’s CODIS Unit manages CODIS and is
                         1

responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

      Our audit covered the period from October 2008 through
September 2010. The objectives of our audit were to determine if: (1) the
South Dakota Forensic Laboratory was in compliance with the National DNA
Index System (NDIS) participation requirements; (2) the Laboratory was in
compliance with the Quality Assurance Standards (QAS) issued by the FBI;
and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. Appendix I contains
a detailed description of our audit objectives, scope, and methodology; and
Appendix II contains the criteria used to conduct the audit.

Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with



       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.

                                             1
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2
Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state


      2
          42 U.S.C.A. § 14132 (2006).


                                        2
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS


                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office



National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory-
to-laboratory contacts. NDIS contains the following eight searchable
indices:

      •   Convicted Offender Index contains profiles generated from persons
          convicted of qualifying offenses. 3


      3
        The phrase “qualifying offenses” refers to local, state, or federal crimes that
 require a person to provide a DNA sample in accordance with applicable laws.


                                                  3
     •   Arrestee Index is comprised of profiles developed from persons who
         have been arrested, indicted, or charged in an information with a
         crime.

     •   Legal Index consists of profiles that are produced from DNA
         samples collected from persons under other applicable legal
         authorities. 4

     •   Detainee Index contains profiles from non-U.S. persons detained
         under the authority of the U.S. and required by law to provide a
         DNA sample for analysis and entry into NDIS.

     •   Forensic Index profiles originate from, and are associated with,
         evidence found at crime scenes.

     •   Missing Person Index contains known DNA profiles of missing
         persons and deduced missing persons.

     •   Unidentified Human (Remains) Index holds profiles from
         unidentified living individuals and the remains of unidentified
         deceased individuals. 5

     •   Relatives of Missing Person Index is comprised of DNA profiles
         generated from the biological relatives of individuals reported
         missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes and
(2) identify missing and unidentified persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.


     4
        An example of a Legal Index profile is one from a person found not guilty by
 reason of insanity who is required by the relevant state law to provide a DNA sample.
     5
         An example of an Unidentified Human (Remains) Index profile from a living person
 is a profile from a child or other individual, who cannot or refuses to identify themself.


                                            4
       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quantity of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS. 6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations

      6
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                               5
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The Laboratory is an SDIS Laboratory and serves the entire state of
South Dakota, including approximately 360 agencies. This includes all police
departments, all sheriffs’ offices, the South Dakota Department of Game,
Fish and Parks, the FBI, the Bureau of Indian Affairs (BIA), the Bureau of
Alcohol, Tobacco, Firearms, and Explosives (ATF), the Drug Enforcement
Agency (DEA), the U.S. Fish and Wildlife Services, and other justice related
agencies. This is the only DNA laboratory in the state of South Dakota.
There are 66 counties in South Dakota, and approximately 800,000 people.
The Laboratory began using CODIS in May 1997 and uploading profiles to
NDIS in November 1998. The Laboratory began its Convicted Offender and
Arrestee database on July 1, 1990, but does not maintain a legal database.
The Laboratory began using DNA in the processing of criminal case evidence
in December 2002. The Laboratory has outsourced the analysis of DNA
samples for offenders for the past 2 years but has analyzed all forensic DNA
samples in-house at the Laboratory. The Forensic Quality Services
accredited the Laboratory to the International Organization for
Standardization (ISO) standards and the Laboratory’s next
accreditation/certification renewal is due in January 2012.




                                      6
               FINDINGS AND RECOMMENDATIONS

      I. Compliance with NDIS Participation Requirements

      The results of our testing of compliance with NDIS Standards
      identified only one instance of non-compliance with the NDIS
      participation requirements we reviewed.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level.The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

       We found that the Laboratory complied with the NDIS participation
requirements we reviewed, with one exception. Specifically, we found that
the Laboratory’s policy for record retention did not adhere to the NDIS
participation requirement to retain personnel records for a minimum of
10 years. The Laboratory amended its personnel records requirements to
adhere to the NDIS requirement. These results are described in more detail
below.

  •   NDIS procedures require that participating Laboratories maintain
      personnel files for CODIS users, including proficiency testing, training,
      and other reports, for 10 years. According to Laboratory officials,
      personnel records, including professional development records, DNA
      and non-DNA training, and educational transcripts, are kept for
      5 years from the last date of employment. We discussed with
      Laboratory management the FBI’s requirement to retain these records
      for 10 years. While we were on site, the Laboratory amended its
      record retention policy to require that personnel records be kept for
      10 years after the last day of employment.

       We found that the Laboratory complied with the other NDIS
participation requirements we reviewed, as described below.

  •   NDIS requires that CODIS be physically and electronically safeguarded
      from unauthorized use and only accessible to limited approved
      personnel. The Laboratory’s two CODIS workstations are in a separate

                                       7
    room in secured Laboratory space and only CODIS users are allowed
    to use these workstations. All users have their own CODIS user
    password, and the computer screen locks after 10 minutes of
    inactivity. The CODIS Administrator makes backup tapes weekly and
    stores them in an off-site locked facility monthly.

•   NDIS operational procedures require that CODIS users be aware of the
    NDIS procedures, know where to find them, and have access to them.
    We confirmed with all three of the Laboratory’s CODIS users that they
    were aware of the procedures. We verified that Laboratory staff knew
    where to find and access the procedures in the Laboratory by having
    two of the three CODIS users show us where to find them.

•   CODIS users are required to complete annual DNA Records Acceptance
    training. We verified with the FBI that all current CODIS users had
    completed the web-based training.

•   The FBI requires that the Laboratory submit fingerprint cards,
    background information, CODIS user information, and other
    appropriate documentation regarding CODIS users. We verified that
    the Laboratory submitted all required information for each CODIS user
    to the FBI.

•   NDIS procedures require a match confirmation process when matches
    are identified in the CODIS system. We judgmentally selected a
    sample of five NDIS matches and found the Laboratory to be timely in
    match confirmation requests, match confirmations, confirmation
    dispositions, and the notification to investigators of forensic matches.

•   SDIS laboratories are required to have procedures that discuss when a
    laboratory is required to expunge a profile from NDIS. The Laboratory
    has policies and procedures for expunging profiles, which include
    removing the sample from the Laboratory and NDIS databases and
    destroying the sample.

•   We reviewed documentation for the four expungement requests the
    Laboratory received between July 1, 2003, and November 5, 2010.
    We verified that the Laboratory acted on all expungement requests
    and followed the appropriate policies and procedures for all
    expungements. Prior to July 1, 2003, the Laboratory had
    administratively expunged 194 records because of changes in the laws
    of South Dakota. We did not review these expungements.



                                    8
  •   NDIS requirements exist regarding one-time searches of outsourced
      offender DNA data. The Laboratory has not requested a one-time
      search of its outsourced offender profiles.

  •   The NDIS operational procedure titled Review of External Audits
      requires that external quality assurance review reports be forwarded
      to the NDIS Custodian within 30 days of the Laboratory’s receipt of the
      report. We reviewed the submission of the most recent external
      review and found that the report was submitted to the NDIS custodian
      in a timely manner.

Conclusion

       For the areas we tested, we determined that the Laboratory was in
compliance with NDIS participation requirements. We did not identify any
deficiencies in safeguarding CODIS, annual training forms, or NDIS matches.
We found one exception with the retention of personnel records but the
Laboratory amended its procedure manual to follow FBI policy. Therefore,
we made no recommendations concerning our review of NDIS participation
requirements.




                                     9
   II. Compliance with Quality Assurance Standards

       We reviewed the Laboratory’s compliance with select FBI quality
       assurance standards (QAS) by examining the most recent
       internal and external reviews and the Laboratory’s policies and
       procedures for sample processing, sample security, and sample
       retention. We found the Laboratory was in compliance with the
       QAS we reviewed.

      During our audit, we considered the Forensic and Offender Quality
Assurance Standards (QAS) issued by the FBI. 7 These standards describe
the quality assurance requirements that the Laboratory must follow to
ensure the quality and integrity of the data it produces.We also assessed the
two most recent QAS reviews that the laboratory underwent. 8 The QAS we
reviewed are listed in Appendix II.

Results of the OIG Audit

      We found that the Laboratory complied with the Forensic and Offender
QAS we tested. Specifically, we found the Laboratory is reviewed annually,
has appropriate building and evidence security, and has appropriate quality
assurance policies. These results are described in more detail below.

   •   The QAS requires laboratories to undergo an annual review, including
       an external review every 2 years. We determined that the Laboratory
       complied with this requirement by undergoing an annual review and by
       alternating between an internal and an external review each year.

   •   We obtained the most recent external and internal reviews for the
       Laboratory. We determined that for both reviews the FBI audit
       document was used, all instances of noncompliance noted in the
       reports were reported as findings, all reviewers had completed the
       FBI’s QAS reviewer training course, and corrective actions for review

       7
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective July 1, 2009.
       8
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.


                                             10
    of findings were developed by the Laboratory. Although the external
    review report contained findings, we did not identify repeat
    deficiencies.

•   In order for us to rely on the external review report, external
    reviewers must confirm they were independent at the time of the
    review. We requested and received a completed reviewer
    independence statement from the reviewer participating in the
    external review.

•   We verified that the entrances to the Laboratory are properly secured
    and controlled with key cards, security cameras, and a receptionist for
    the public entrance to prevent access by unauthorized personnel.
    Various areas within the Laboratory are also secured by key card
    scanners allowing access only to authorized personnel for specific
    areas of the building. All visitors are escorted within the building.
    Overall security at the Laboratory appears to be adequate and in
    compliance with the QAS requirements that we tested.

•   The integrity of physical evidence is maintained by the Laboratory in
    accordance with the QAS standards that we tested. Specifically, the
    Evidence Custodians utilize a computer program to generate a unique
    barcode for each evidence container. The unique barcode includes the
    Laboratory identifier, year the evidence was submitted, case number,
    Laboratory item number, and the submitting agency item number.
    Through observation, we determined that evidence is properly stored
    from the point of receipt through processing. To ensure the accuracy
    of data loaded into the database, the Laboratory technically reviews all
    case files and completes a checklist for each sample prior to uploading
    to CODIS.

•   The QAS requires laboratories to perform evidence examination, DNA
    Extraction, and PCR setup at separate times or in separate places. For
    known and unknown samples, the Laboratory performs the
    examination and extraction, in separate rooms and times within the
    Laboratory from the PCR setup and amplification.

•   The Laboratory stores the offender database in a secure area and
    retains the samples indefinitely. Specific to forensic samples, prior to
    processing an analyst takes cuttings that are consumed in testing.
    The original evidence is returned to the submitting agency.

•   The Laboratory contracted out the analysis of convicted offender
    samples in the past 2 years. We verified that the subcontractor met

                                    11
      the QAS requirements to have an external review performed every
      other year. In addition, the Laboratory reviewed the integrity of all
      samples received from the subcontractor and the subcontracted
      laboratory met the specific testing and reporting requirements detailed
      in its contract. We found the Laboratory is in compliance with the QAS
      with respect to subcontractor monitoring.

  •   We determined the Laboratory has adequate procedures to verify the
      integrity of contractor data. Specifically, the Laboratory performs
      in-house reviews of the data from the subcontractor laboratory for
      each sample analyzed. For the offender samples, the Laboratory
      randomly re-analyzes samples, technically reviews all data, has
      5 percent quality-control samples tested, and performs site visits at
      the subcontractor laboratory. Based on our audit, we found that the
      Laboratory has procedures in place that are consistent with the QAS to
      ensure the integrity of outsourced DNA analysis.

  •   We reviewed documentation that the Laboratory has conducted on-site
      reviews of the subcontractor laboratory. The subcontractor laboratory
      was found to be sufficient to perform quality DNA analysis.


Conclusion

      Based on our review of internal and external reviews as well as
Laboratory and sample security, our audit did not reveal any deficiencies in
the Laboratory’s compliance with the FBI’s QAS. We made no
recommendations concerning our review of Quality Assurance Standards.




                                     12
     III. Suitability of Forensic DNA Profiles in CODIS Databases

      We reviewed 84 DNA profiles in the Laboratory’s forensic CODIS
      database and determined that all were complete and accurate.
      During our review, we found one profile was not allowable for
      inclusion in NDIS because there was not enough information in
      the case file to determine the source of the profile and other
      essential information. As a result, prior to the issuance of this
      report, Laboratory officials removed this profile from the forensic
      index.

       We reviewed a sample of the Laboratory’s Forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 9 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results, and that the values at each locus match those
identified during analysis. 10 Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt or that was in the possession of the suspect when collected is generally
not a forensic unknown, and would not be allowable for upload to NDIS. The
NDIS procedures we reviewed are listed in Appendix II of this report.




      9
         When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample is
taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
      10
           A “locus” is a specific location on a chromosome. The plural form of locus is loci.




                                              13
Results of the OIG Audit

       We selected a sample of 84 profiles out of the 336 forensic profiles the
Laboratory had uploaded to NDIS as of September 29, 2010. Of the 84
forensic profiles sampled, we found that 1 was unallowable for upload to
NDIS. The remaining profiles sampled were complete, accurate, and
allowable for inclusion in NDIS. The specific exception is explained in more
detail below.

OIG Sample Number CA-07

       According to the NDIS requirements, a forensic sample must be
related to a crime. During our review, we identified one profile that was
generated from a sample of blood found in a parking lot in the Badlands
National Park and was submitted to the Laboratory to determine if it was
human blood. Laboratory officials determined that the sample was human
blood but because there was no evidence that it was from a crime scene, the
profile is unallowable for inclusion in the Forensic Index at NDIS. After we
discussed this with Laboratory management, Laboratory officials agreed with
our finding and removed the profile from the Forensic Index. Therefore, we
make no recommendation for additional corrective action.

Conclusion

       After reviewing the case files for each of the 84 profiles in our sample,
we found all sampled profiles to be accurate and complete. We found one
profile that was not allowable for inclusion in the NDIS database. Laboratory
officials agreed with our conclusion and removed the profile from the
Forensic Index at NDIS. We made no recommendations concerning our
review of Forensic DNA profiles.




                                      14
                                                                         APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from October 2008 through
September 2010. The objectives of the audit were to determine if: (1) the
Laboratory was in compliance with the NDIS participation requirements;
(2) the Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS.o accomplish the objectives of the audit, we:

   •   Examined internal and external Laboratory QAS review reports and
       supporting documentation for corrective action taken, if any, to
       determine whether: (a) the Laboratory complied with the QAS,
       (b) repeat findings were identified, and (c) recommendations were
       adequately resolved.12

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program, organization and management, personnel
       qualifications, facilities, evidence control, validation of methods and
       procedures, analytical procedures, calibration and maintenance of
       instruments and equipment, proficiency testing of analysts, corrective
       action for discrepancies and errors, review of case files, reports, safety,
       and previous audits. The QAS require that internal and external reviews


       12
           The QAS require that laboratories undergo annual audits, which every other year,
must be performed by an external agency that performs DNA identification analysis and is
independent of the laboratory being reviewed. The QAS does not require these audits to be
performed in accordance with the Government Auditing Standards (GAS) and they are not
performed by the Department of Justice Office of the Inspector General. Therefore, we
refer to the QAS audits as either internal or external laboratory reviews, as applicable, to
avoid confusion with our audits that are conducted in accordance with GAS.

                                            15
       be performed by personnel who have successfully completed the FBI’s
       training course for conducting such reviews.

       As permitted by GAS 7.42 (2007 revision), we generally relied on the
       results of the Laboratory’s external laboratory review to determine if
       the Laboratory complied with the QAS. 13 In order to rely on the work
       of non-auditors, GAS requires that we perform procedures to obtain
       sufficient evidence that the work can be relied upon. Therefore, we:
       (1) obtained evidence concerning the qualifications and independence
       of the individuals who conducted the review and (2) determined that
       the scope, quality, and timing of the audit work performed was
       adequate for reliance in the context of the current audit objectives by
       reviewing the evaluation procedure guide and resultant findings to
       understand the methods and significant assumptions used by the
       individuals conducting the reviews. Based on this work, we
       determined that we could rely on the results of the Laboratory’s
       external laboratory review.

   •   Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

   •   Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing,
       analyzing, and storage of forensic evidence and offender DNA samples.

   •   Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, expunging DNA
       profiles from NDIS, and resolving matches among DNA profiles in NDIS.

   •   Reviewed supporting documentation associated with the four requests
       for the deletion of a DNA profile the Laboratory had received between
       July 1, 2003, and November 5, 2010, to determine if employees
       followed the Laboratory’s policy for expunging DNA profiles from NDIS.

   •   Reviewed supporting documentation for 5 of 47 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of NDIS matches as of November 2,

       13
           We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.


                                             16
      2010. The sample was judgmentally selected to include case-to-case
      matches. There were no case-to-offender matches. This non-statistical
      sample does not allow projection of the test results to all matches.

  •   Reviewed supporting documentation to determine whether the
      Laboratory provided adequate vendor oversight.

  •   Reviewed the case files for selected forensic DNA profiles to determine if
      the profiles were developed in accordance with the Forensic QAS and
      were complete, accurate, and allowable for inclusion in NDIS.

  •   Working in conjunction with the contractor used by the FBI to maintain
      NDIS and the CODIS software, we obtained an electronic file identifying
      the 336 (STR) forensic profiles the Laboratory had uploaded to NDIS as
      of September 29, 2010. We limited our review to a sample of
      84 profiles. This sample size was determined judgmentally because
      preliminary audit work determined that risk was not unacceptably high.

  •   Using the judgmentally-determined sample size, we randomly selected a
      representative sample of labels associated with specific profiles in our
      universe to reduce the effect of any patterns in the list of profiles
      provided to us. However, since the sample size was judgmentally
      determined, the results obtained from testing this limited sample of
      profiles may not be projected to the universe of profiles from which the
      sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                      17
                                                                      APPENDIX II

                               AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements.

      •    DNA Data Acceptance Standards
      •    DNA Data Accepted at NDIS
      •    Quality Assurance Standards (QAS) Reviews
      •    NDIS DNA Autosearches
      •    Confirm an Interstate Candidate Match
      •    General Responsibilities
      •    Initiate and Maintain a Laboratory’s Participation in NDIS
      •    Security Requirements
      •    CODIS Users
      •    CODIS Administrator Responsibilities
      •    Access to, and Disclosure of, DNA Records and Samples
      •    Upload of DNA Records
      •    Expunge a DNA Record
      •    The FBI Flowchart: A Guide to Determining What is Allowable in the
           Forensic Index at NDIS 14




      14
         The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
 from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
 CODIS Administrator’s Handbook and has been provided to laboratories in referendums
 such as CODIS conferences.
                                           18
Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009 (Offender
QAS). The Forensic QAS and the Offender QAS describe the quality
assurance requirements that the Laboratory should follow to ensure the
quality and integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
       have a facility that is designed to ensure the integrity of the analyses
       and the evidence.

   •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence. Where possible, the laboratory shall retain or return
       a portion of the evidence sample or extract.

   •   Sample Control (Offender QAS 7.1): The laboratory shall have and
       follow a documented sample inventory control system to ensure the
       integrity of database and known samples.

   •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
       laboratory shall monitor the analytical procedures using [appropriate]
       controls and standards.

   •   Review (Forensic QAS 12.1): The laboratory shall conduct
       administrative and technical reviews of all case files and reports to
       ensure conclusions and supporting data are reasonable and within the
       constraints of scientific knowledge.

       (Offender QAS 12.1): The laboratory shall have and follow written
       procedures for reviewing DNA records and DNA database information,
       including the resolution of database matches.

   •   [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
       laboratory shall be audited annually in accordance with [the QAS]. The
                                       19
      annual audits shall occur every calendar year and shall be at least
      6 months and no more than 18 months apart.
      At least once every 2 years, an external audit shall be conducted by an
      audit team comprised of qualified auditors from a second agency(ies)
      and having at least one team member who is or has been previously
      qualified in the laboratory’s current DNA technologies and platform.

  •   Outsourcing (Forensic QAS and Offender QAS 17.1): A vendor
      laboratory performing forensic and database DNA analysis shall comply
      with these Standards and the accreditation requirements of federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received
      through the performance of the technical review of DNA data from a
      vendor laboratory.

      Offender QAS 17.4: An NDIS participating laboratory shall have, follow,
      and document appropriate quality assurance procedures to verify the
      integrity of the data received from the vendor laboratory including, but
      not limited to, the following: Random reanalysis of database, known or
      casework reference samples; Inclusion of QC samples; Performance of
      an on-site visit by an NDIS participating laboratory or multi-laboratory
      system outsourcing DNA sample(s) to a vendor laboratory or accepting
      ownership of DNA data from a vendor laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •   Completeness of DNA Profiles: A profile must include each value
      returned at each locus for which the analyst obtained results. Our
      rationale for this standard is that the probability of a false match
      among DNA profiles is reduced as the number of loci included in a
      profile increases. A false match would require the unnecessary use of
      laboratory resources to refute the match.

  •   Accuracy of DNA Profiles: The values at each locus of a profile must
      match those identified during analysis. Our rationale for this standard
      is that inaccurate profiles may: (1) preclude DNA profiles from being
      matched and, therefore, the potential to link convicted offenders to a
      crime or to link previously unrelated crimes to each other may be lost;


                                      20
    or (2) result in a false match that would require the unnecessary use
    of laboratory resources to refute the match.

•   Timely Notification of Law Enforcement When DNA Profile Matches
    Occur in NDIS: Laboratories should notify law enforcement personnel
    of NDIS matches within 2 weeks of the match confirmation date,
    unless there are extenuating circumstances. Our rationale for this
    standard is that untimely notification of law enforcement personnel
    may result in the suspected perpetrator committing additional, and
    possibly more egregious, crimes if the individual is not deceased or
    already incarcerated for the commission of other crimes.




                                   21
                                                                       APPENDIX III

       SOUTH DAKOTA FORENSIC LABORATORY RESPONSE
                                STATE OF SOUTH DAKOTA
                              DCI FORENSIC LABORATORY
                              OFFICE OF ATTORNEY GENERAL
                                  1302 E. Hwy 14, Ste. 6
                           PIERRE, SOUTH DAKOTA 57501-8506
                                 PHONE (605) 773-3673
                                   FAX (605) 773-5658

      MARTY J. JACKLEY                                 Division of Criminal Investigation
      ATTORNEY GENERAL                                       Law Enforcement Training


February 22, 2011

Mr. David M. Sheeren
Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
1120 Lincoln, Suite 1500
Denver, CO 80203


Dear Mr. Sheeren:

I have reviewed the OIG draft audit report covering the period from October 2008 through
September 2010 conducted at the South Dakota State Forensic Laboratory.

Based on my review of the document, the laboratory was found to be in compliance with the
NDIS participation requirements and the Quality Assurance Standards (both Forensic and
Offender).

The review of the suitability of Forensic DNA profiles in CODIS revealed 1 (one) sample that
was unallowable and thus was removed from NDIS.

I agree with the draft audit report as written and extend my appreciation to the OIG for
their efforts in the audit process.

Sincerely,

/s/

Frans A. Maritz
Laboratory Director


cc: Paula Pagano, FBI




                                            22
                                                                       APPENDIX IV

       FEDERAL BUREAU OF INVESTIGATION RESPONSE
                                                         U.S. Department of Justice

                                                         Federal Bureau of Investigation

                                                         Washington, D. C. 20535-0001

                                                         February 10, 2011



Mr. David M. Sheeren
Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector General
1120 Lincoln, Suite 1500
Denver, CO 80203


Dear Mr. Sheeren:

       Your memorandum to Director Mueller forwarding the draft report of the audit
conducted at the South Dakota Forensic Laboratory, Pierre, South Dakota (Laboratory) has
been referred to me for response.

        Your draft report contained no recommendations relating to the Laboratory's
compliance with the FBI's Memorandum of Understanding and Quality Assurance Standards
for DNA Testing Laboratories and DNA Databasing Laboratories. The CODIS Unit reviewed
the draft report and since it appears that the Laboratory is in compliance with NDIS
participation requirements, the CODIS Unit has no significant comments to provide about
the draft report.

       Thank you for sharing the draft audit report with us. If you have any questions,
please feel free to contact Jennifer C. Luttman, Chief of the CODIS Unit, at (703) 632-8315.

                                                 Sincerely,

                                                         /s/

                                                 Alice R. Isenberg, Ph.D
                                                 Section Chief
                                                 Biometrics Analysis Section
                                                 FBI Laboratory




                                            23
